CARGO PREFERENCE BILLING AND
     PAYMENT PROCESS
       Maritime Administration

      Report Number: FI-2004-057
       Date Issued: May 5, 2004
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Cargo Preference Billing                                               Date:    May 5, 2004
           and Payment Process
           FI-2004-057

  From:    Alexis M. Stefani                                                           Reply to
                                                                                       Attn. of:   JA-20:x61496
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Maritime Administrator
           Assistant Secretary for Budget and Programs/
            Chief Financial Officer
           General Counsel

           This report presents the results of our review of the issues surrounding a recent
           invoice of $379 million submitted by the U.S. Department of Agriculture’s
           (USDA) Commodity Credit Corporation1 to the Maritime Administration
           (MARAD). MARAD is required to reimburse USDA for “excess” ocean freight
           costs that food assistance programs incur to comply with cargo preference statutes.
           Cargo preference is the legal requirement that a percentage of cargo shipped
           internationally, as a result of Federal Government involvement, be transported on
           U.S.-flag vessels.       Commodity Credit Corporation collects MARAD’s
           reimbursement and returns the funds to the food assistance programs administered
           by USDA and the U.S. Agency for International Development (USAID). The
           funds can then be used to provide additional food assistance.

           MARAD has not made a payment for excess ocean freight since 1995, when
           MARAD paid $35 million due for Fiscal Year (FY) 1992. The current invoice
           covers amounts due for FY 1994 through FY 2000 and has been in process since
           July 2003.2 In part, the delays are due to an antiquated manual billing and
           payment process, but they primarily reflect a fundamental dispute between USDA
           and MARAD over how to calculate the amount of excess ocean freight owed. In
           2001, USAID’s Office of Inspector General reported on other procedural problems
           1
               Commodity Credit Corporation is a Government-owned and operated entity that was created to stabilize, support,
               and protect farm income and prices. It also helps maintain balanced and adequate supplies of agriculture
               commodities and aids in their orderly distribution.
           2
               In some years, no “excess” ocean freight payment is due.
                                                                                                             2


associated with the cargo preference reimbursement process.3 Timely payments
are important to support the programs goals—delivering more food assistance,
supporting America’s farmers, and increasing the amount of cargo shipped on
U.S.-flag vessels.

In light of the long period of non-payment, the continuing payment dispute, and
the large amount in question, the Office of Management and Budget requested that
we review the cargo preference dispute between MARAD and USDA and assess
to what extent MARAD is liable for the $379 million invoice from USDA.
Officials from MARAD also requested we review the matter. We performed the
review in accordance with Government Auditing Standards for attestation
engagements in reviewing management’s assertions. Our objective was to
describe the nature of the cargo preference dispute between MARAD and USDA
and to provide assurance that the payment MARAD is proposing, $164 million,
was supportable and reasonable. Exhibit A describes our scope and methodology.

BACKGROUND
U.S. cargo preference laws are part of a statutory program to support the privately
owned and operated U.S.-flagged Merchant Marine. The objective is to ensure
that U.S. vessels and seamen are available when needed to support national
defense requirements. From 1954 to 1985, the cargo preference requirement
stipulated that at least 50 percent of certain U.S. Government-generated cargoes be
shipped on U.S.-flag vessels. In 1985, Congress amended the laws to increase this
requirement from 50 percent to 75 percent for commodities shipped under certain
food assistance programs.

The difference in ocean freight costs between using U.S.-flag vessels and non–
U.S.-flag vessels is referred to as Ocean Freight Differential (OFD). Commodity
Credit Corporation pays all shipping costs, including the OFD associated with
shipping the first 50 percent of cargo on U.S.-flag vessels. MARAD reimburses
Commodity Credit Corporation for the additional OFD associated with shipping
more than 50 percent of cargo on U.S.-flag vessels. This cost is called the
Incremental Ocean Freight Differential (Incremental OFD). Commodity Credit
Corporation bills MARAD on a quarterly basis for reimbursement of Incremental
OFD, and MARAD routinely pays those bills. Reimbursement of these costs is
not in dispute.

In any fiscal year in which shipping costs exceed 20 percent of total program
costs,4 MARAD is also required to reimburse USDA for shipping costs that

3
    Audit of USAID Cargo Preference Reimbursements under Section 901d of the Merchant Marine Act of 1936, dated
     March 30, 2001, audit number 9-000-01-003-P
4
    Total Program Costs are total shipping costs plus the value of commodities.
                                                                                  3


exceed 20 percent of the program costs. This is referred to as “20 percent excess
ocean freight.” The Commodity Credit Corporation is supposed to bill MARAD
annually for the 20 percent excess ocean freight for those years when the excess
provision applies. It is the calculation of the 20 percent excess ocean freight that
is in dispute.

Both the Incremental OFD and 20 percent excess ocean freight payments are
intended to reimburse the food assistance programs for a portion of the added
costs of using U.S.-flag vessels. Commodity Credit Corporation returns the
reimbursed amounts to the food assistance programs. This allows both USAID,
which is responsible for the majority of annually appropriated food assistance, and
USDA, which also supplies food overseas, to deliver more food.


FINDINGS AND RECOMMENDATIONS
We found that MARAD owes at least $164 million for FY 1994 through FY 2000
and perhaps more, depending on how the payment dispute is resolved. MARAD
may also owe additional amounts for FY 2001 through FY 2004, which have not
yet been calculated or billed. The $164 million amount should be disbursed
immediately because MARAD owes at least this amount. This interim payment is
reasonable as it reflects MARAD’s calculation methodology, the payment
methodology used in the past. MARAD has also asserted that supporting
documents (i.e., the underlying billings) are proper.

The reconciliation of USDA’s invoice for $379 million and MARAD’s payment
of $164 million will require a legal determination by the Department of
Transportation (DOT) General Counsel as to the appropriate method for
calculating the amount owed. We anticipate an expeditious opinion from the
General Counsel. In the interim, properly documented billings should be paid
using the same rationale as this payment of $164 million.

This protracted dispute must be resolved. Steps also need to be taken to ensure
more timely submission of invoices and reimbursements in the future. In this
regard, MARAD believes that the implementation of a commercially available
electronic payment system could substantially lower freight costs and expedite the
payment of invoices. MARAD, USDA, and USAID need to reexamine the billing
and payment process to identify ways to accelerate the process. We are also
recommending that MARAD report to the Secretary within 60 days on the
agency’s progress implementing the recommendations in this report.
                                                                                4


Calculating Excess Ocean Freight
We found that three alternative methodologies exist to calculate the 20 percent
excess ocean freight, but a legal opinion is required to determine the proper
methodology or, alternatively, whether discretion exists as to which method to
apply. The differences relate to whether Incremental OFD payments that
MARAD makes to USDA during the year should be deducted:

      • From the total amount owed for 20 percent excess ocean freight,

      • From shipping costs before calculating the 20 percent excess ocean
        freight amount, or

      •   Not at all.

The dispute centers on language contained in the Cargo Preference Laws and a
1987 Memorandum of Understanding (MOU) between MARAD, USAID, and
USDA. The MOU indicates that when calculating the 20 percent excess ocean
freight payment, the amount of Incremental OFD that MARAD had previously
reimbursed to USDA should be deducted from the calculation. We have read the
MOU and conclude that the text is ambiguous because it does not clearly describe
where in the calculation Incremental OFD should be deducted. Also, it is not clear
that the Cargo Preference Laws call for Incremental OFD to be deducted. In the
case at issue, the cost to the Federal Government is not reduced simply because
part of the cost (the difference between using U.S.-flag vessels and foreign-flag
vessels) is borne by MARAD in the form of Incremental OFD.

MARAD believes that payments for Incremental OFD should be deducted from
the total amount owed for 20 percent excess ocean freight. This methodology
results in a lower reimbursement for 20 percent excess ocean freight than the
methodology favored by USDA. MARAD points to the MOU as the basis for its
methodology, but as indicated above, we believe the MOU is ambiguous.

USDA agrees that payments for Incremental OFD should be deducted. However,
USDA’s methodology deducts the Incremental OFD from shipping costs before
calculating the 20 percent excess ocean freight. This methodology results in a
higher reimbursement for 20 percent excess ocean freight. Like MARAD, USDA
points to the MOU as the basis for its methodology.

Yet another possible method of calculating excess ocean freight is plausible. The
Cargo Preference Laws do not contain an explicit provision directing that
Incremental OFD previously paid by MARAD be deducted when calculating the
20 percent excess ocean freight amount. Not deducting the Incremental OFD
results in the highest reimbursement for 20 percent excess ocean freight—higher
than both MARAD’s and USDA’s methodologies.
                                                                                5


The payment of $164 million that we recommend is based on MARAD’s
methodology. We agree that this interim payment is reasonable because, by both
MARAD’s and USDA’s calculations, MARAD owes at least $164 million.
Additionally, this is the same methodology used to calculate the prior payment,
and MARAD and USDA have reviewed and agreed that the underlying
documentation is accurate.       A legal determination as to the appropriate
methodology is needed to determine what additional amount is owed. DOT’s
General Counsel is currently reviewing the issues to determine the methodology
that should be used to calculate 20 percent excess ocean freight. We anticipate an
expeditious opinion from the General Counsel. In the interim, properly
documented billings should be paid using the same rationale as this payment of
$164 million.


Timely Billings and Payments in the Future
In our opinion, the processes for reimbursing the Incremental OFD and the
20 percent excess ocean freight take far too long. The reimbursement process for
Incremental OFD takes several years to complete. To illustrate, MARAD received
and paid invoices in March 2004 for Incremental OFD for the period July 2001
through September 2001 and the period January 2003 through March 2003.

The amount due for 20 percent excess ocean freight cannot be determined until all
costs are reported for the fiscal year. It also takes several years to process the
20 percent excess ocean freight payments. For example, USDA’s initial invoice
for FY 2000 was not received until July 2003, and it was found to be incomplete
and was returned to USDA. Both MARAD and USDA estimate that a
reimbursement is due for FY 2000 of $126 million or $156 million, respectively.
MARAD has also not received invoices for FYs 2001, 2002, and 2003.

MARAD officials believe that implementing an automated system would expedite
the payment of invoices and substantially lower shipping costs. They recommend
using a commercial system used by the Department of Defense called
PowerTrack. According to Department of Defense officials, PowerTrack has
significantly accelerated the payment process while improving its transportation
management. However, USAID officials were concerned that USAID’s shipping
costs could increase using this particular system. In addition, neither MARAD,
USAID, nor the Department of Defense could readily provide an analysis of the
system’s costs and benefits. We believe the cargo preference program clearly
needs to reexamine its processes to eliminate the extensive delays and that an
automated system could be part of the solution. An economic and operational
analysis would be needed to determine whether this system or another would be
cost-beneficial.
                                                                                6




RECOMMENDATIONS
We recommend that the MARAD Administrator:

   1. Pay USDA $164 million immediately.

   2. Pay any additional amount due to USDA in accordance with the
      methodology identified by DOT’s General Counsel and, if
      necessary, take the appropriate steps to revise the MOU accordingly.

   3. Explore, in coordination with USDA and USAID, ways to expedite
      the payment process, including implementing an automated payment
      method.

   4. Report to the Secretary within 60 days on MARAD’s progress
      implementing these recommendations.

OTHER MATTERS
In addition to the issues surrounding the invoice submitted by USDA for
20 percent excess ocean freight, a proposed rulemaking to update and clarify
MARAD’s cargo preference regulations is being considered. MARAD’s proposed
rulemaking, among other matters, seeks to define the type of vessels subject to
cargo preference requirements for U.S-flag vessels. Although these regulations
are not directly germane to the payment dispute, they would affect the conduct of
cargo preference responsibilities of MARAD, USDA, and USAID.

The proposed rulemaking and its antecedents have proven to be controversial and
stem from current and past litigation. They appeal to U.S.-flag vessel operators
because they will result in stricter compliance with the minimum cargo preference
for each class of vessels and, therefore, increased carriage on U.S.–flag vessels.
However, USDA and USAID are concerned because the proposed rulemaking will
reduce their discretion to select cargo vessels, resulting in higher costs and,
ultimately, reducing the amount of funds available for purchasing commodities.


MANAGEMENT COMMENTS
Responsible MARAD officials provided oral comments on a draft of this report.
They stated that they agreed with the report’s findings and recommendations.
                                                                                   7


ACTION REQUIRED
In accordance with Department of Transportation Order 8000.1C, within 30 days,
please provide the specific actions taken or planned, including specific target dates
to implement the recommendations.

We appreciate the courtesies and cooperation of MARAD representatives during
this audit. If you have any questions concerning this report, please call Ted Alves,
Assistant Inspector General for Financial and Information Technology Audits, at
(202) 366-1496 or Alvin Brown, Program Director, at (202) 366-4350.

                                         #
                                                                                8




EXHIBIT A. SCOPE AND METHODOLOGY
An Office of Management and Budget (OMB) official requested that we review
the cargo preference dispute between MARAD and USDA and assess to what
extent MARAD is liable for the $379 million invoice from USDA. Officials from
MARAD also requested our assistance to review the matter. On April 23, 2004,
MARAD presented an Ocean Freight Differential Issue Paper to DOT senior
management and the OMB official. Our objectives were to:

      • Review the nature of the cargo preference dispute between MARAD
        and USDA, and

      • Provide assurance that MARAD’s proposed payment of $164 million
        was supportable and reasonable.

We conducted this engagement in accordance with Government Auditing
Standards. We applied attestation standards published by the American Institute
of Certified Public Accountants for review of management’s assertions.

We reviewed MARAD’s assertions contained in its Ocean Freight Differential
Issue Paper. Our scope was limited to reviewing the assertions made by
management. Those assertions are the responsibility of management. Our
responsibility is to comment on those assertions, based on our review. This report
provides no basis for any other conclusions other than those discussed here.

In performing our review, we made inquiries, reviewed relevant documents, held
meetings, and interviewed MARAD senior executives, USAID procurement
officials, as well as Department of Defense officials from the Office of the
Inspector General and the Defense Finance and Accounting Service. Additionally,
we discussed the legal issues with our Counsel.

We reviewed the Cargo Preference Laws, a Comptroller General’s decision of
February 1955 (B-95832), and the 1987 Memorandum of Understanding between
MARAD and USAID.

We reviewed the $379 million dollar invoice and attachments submitted by
USDA. We observed MARAD’s process for evaluating the invoice. Using total
shipping, total Incremental OFD, and total value of commodities determined from
MARAD’s records, we recalculated the amounts due using the methodologies of
USDA, MARAD, and no deduction of Incremental OFD. Our focus was to
determine the degree of risk for overpayment.


Exhibit A. Scope and Methodology
                                                                             9



We compared the methodology for calculating the March 15, 2004 invoice with
the methodology for computing payment on an invoice for 20 percent excess
ocean freight in 1992 to ensure consistency in payment methodology by MARAD.
MARAD computed the current invoice using the same methodology that it used to
pay the 1992 invoice. We also talked to USDA officials to determine what
methodology was used to calculate past invoices. Their methodology was
different than MARAD’s, but they consistently submitted invoices calculated in
USDA’s manner. However, payment was made using MARAD’s calculation
method.

We held discussions with management at MARAD and USAID concerning
PowerTrack. We conducted internet searches and read both Department of
Defense Inspector General and General Accounting Office reports related to
PowerTrack to obtain an understanding of the advantages and disadvantages
related to implementation of the payment system. Additionally, we discussed the
systems costs and benefits with a project manager at the Department of Defense.

We also contacted USAID Office of Inspector General to gain an understanding of
the audit work performed to support its 2001 audit of USAID’s cargo preference
reimbursements.

We conducted our fieldwork from March to May 2004.




Exhibit A. Scope and Methodology
                                                                                 10




EXHIBIT B. METHODOLOGIES TO CALCULATE
20 PERCENT EXCESS OCEAN FREIGHT
Despite the provisions in the Cargo Preference Statute and MOU signed by both
parties, MARAD and USDA cannot agree on a methodology for calculating
20 percent excess ocean freight. Further, the Act and the MOU are ambiguous
regarding the role of Incremental OFD when calculating the 20 percent excess
cargo freight amount due from MARAD. Because the law and the MOU are
ambiguous, this dispute requires a legal interpretation.

The Food Security Act of 1985 amends the cargo preference statute, which
required MARAD to reimburse USDA for the amount of shipping costs that
exceed 20 percent of shipping costs plus the value of commodities.

Specifically, the Act states,

       SEC. 901d.       46 U.S.C. App. 1241h (a) The Secretary of
       Transportation shall finance any increased ocean freight charges
       incurred in any fiscal year which result from the application of
       section 901b. (b) If in any fiscal year the total cost of ocean freight
       and ocean freight differential for which obligations are incurred by
       the Department of Agriculture and the Commodity Credit
       Corporation on exports of agricultural commodities and products
       thereof under the agricultural export programs specified in section
       901b(b) exceeds 20 percent of the value of such commodities and
       products and the cost of such ocean freight and ocean freight
       differential on which obligations are incurred by such Department
       and Corporation during such year, the Secretary of Transportation
       shall reimburse the Department of Agriculture and the Commodity
       Credit Corporation for the amount of such excess. For the purpose of
       this subsection, commodities shipped from the inventory of the
       Commodity Credit Corporation shall be valued as provided in
       section 403(b) of the Agricultural Trade Development and
       Assistance Act of 1954 (7 U.S.C.1733(b)).

In 1987, USDA, MARAD, and USAID signed the MOU explaining the
responsibilities of all the parties in regards to cargo preference reimbursements.




Exhibit B. Methodol ogies to Calculat e 20 Per cent Excess Ocean
Freight
                                                                            11


However, this provision is ambiguous on whether to deduct Incremental OFD
from shipping costs before calculating 20 percent excess ocean freight—USDA’s
methodology—or to deduct Incremental OFD from 20 percent excess ocean
freight at the end of the calculation—MARAD’s methodology. Each party
believes that its calculation complies with this MOU.

According to the MOU:

      MARAD shall pay to CCC [Commodity Credit Corporation] the
      amount, if any, by which the total of the ocean freight and OFD
      [ocean freight differential] borne by CCC exceeds 20 percent of the
      total value of the commodities shipped, ocean freight and OFD for
      all USDA/CCC programs for each of the fiscal years beginning in
      1986 (last six months), and thereafter.

      Any amount of Incremental OFD paid to CCC by MARAD for each
      fiscal year shall be deducted from the OFD computation in
      paragraph 1 above.

Assume the following were true for one fiscal year.

Value of Commodities                                  $70.00
Shipping Costs                                        $30.00
Incremental OFD                                        $2.00

Program costs would equal the value of commodities plus shipping costs or
$100.00 ($70.00 + $30.00).

Each methodology would result in the following.


MARAD
MARAD believes that payments for Incremental OFD should be deducted from
the total amount owed for 20 percent excess ocean freight. MARAD determines
the amount of shipping costs that exceeds 20 percent of program costs
(shipping costs plus the value of commodities) and then deducts any amount
previously reimbursed as Incremental OFD from that amount to determine the
amount due to USDA for 20 percent excess ocean freight.




Exhibit B. Methodol ogies to Calculat e 20 Per cent Excess Ocean
Freight
                                                                            12


          Shipping Costs                              $30.00
 Less     20% x (Value of Commodities +
          Shipping Costs)
          (.20 x [$70 + $30])                        ($20.00)
Equals    20% Excess Ocean Freight                    $10.00
Less      Incremental OFD                             ($2.00)
Equals    Amount Due to USDA for
          20% Excess Ocean Freight                     $8.00

USDA
USDA deducts Incremental OFD from shipping costs before calculating the
20 percent excess of ocean freight to determine the amount due to USDA for
20 percent excess ocean freight.

                                                       $30.00
          Shipping Costs
 Less     Incremental OFD                             ($2.00)
 Equals Net Shipping Costs                             $28.00
 Less     20% x (Value of Commodities +              ($19.60)
          Net Shipping Costs)
          (.20 x [$70+$28])
 Equals Amount Due to USDA for                          $8.40
        20% Excess Ocean Freight

No Deduction of Incremental OFD
The Cargo Preference Laws, as amended, do not explicitly state that Incremental
OFD should be deducted when calculating the 20 percent excess ocean freight
amount.

          Shipping Costs*                             $30.00
 Less     20% x (Value of Commodities +
          Shipping Costs)
          (.20 x [$70 + $30])                        ($20.00)
 Equals Amount Due to USDA for
        20% Excess Ocean Freight                      $10.00
 *No deduction of $2 for Incremental OFD




Exhibit B. Methodol ogies to Calculat e 20 Per cent Excess Ocean
Freight
                                                           13




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title

  Alvin Brown                           Program Director

  Leonard Meade                         Project Manager

  Linda Toms                            Senior Auditor

  Stacie Seaborne                       Analyst

  Edith A. Makoge                       Analyst

  Keyanna Frazier                       Auditor

  Kathleen Huycke                       Editor




Exhibit C. Major Contributors to This Report
